No. 21-145

In the Supreme Court of the United States
__________________

GORDON COLLEGE, ET AL.,
Petitioners,
v.
MARGARET DEWEESE-BOYD,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Supreme Judicial Court of Massachusetts

__________________

BRIEF OF AMICI CURIAE BENEDICTINE
COLLEGE AND FRANCISCAN UNIVERSITY OF
STEUBENVILLE IN SUPPORT OF PETITIONERS

__________________

RICHARD W. GARNETT IV
Counsel of Record
NICOLE STELLE GARNETT
JOHN A. MEISER
NOTRE DAME LAW SCHOOL
RELIGIOUS LIBERTY INITIATIVE
Eck Hall of Law
Notre Dame, Indiana 46556
(574) 631-6981
rgarnett@nd.edu
Counsel for Amici Curiae

September 2, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. The Ministerial Exception Is Not Confined to a
Narrow List of Facts Present in Prior Cases. . . . 6
II. A Constrained Ministerial Exception Denies the
Reality of Education and Formation at Schools
like Benedictine and Franciscan . . . . . . . . . . . . 10
III.The Supreme Judicial Court’s Test Would
Destroy the Ability of Schools like Amici to
Define Their Educational Missions and
Threatens Their Very Existence . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

ii
TABLE OF AUTHORITIES
CASES
Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. E.E.O.C.,
565 U.S. 171 (2012). . . . . . . . . . . . . . . . . . . passim
Our Lady of Guadalupe Sch. v. Morrissey-Berru,
140 S. Ct. 2049 (2020). . . . . . . . . . . . . . . . . passim
Pierce v. Soc’y of Sisters,
268 U.S. 510 (1925). . . . . . . . . . . . . . . . . . . . . . . 20
United States v. Virginia,
518 U.S. 515 (1996). . . . . . . . . . . . . . . . . . . . . . . 20
Zelman v. Simmons-Harris,
536 U.S. 639 (2002). . . . . . . . . . . . . . . . . . . . . . . 20
STATUTES
20 U.S.C. § 1011a(a)(2)(A) . . . . . . . . . . . . . . . . . . . . 20
OTHER AUTHORITIES
About Us, Franciscan University of Steubenville,
https://bit.ly/3kB6fK2 . . . . . . . . . . . . . . . . . . . . . 18
Benedictine Coll., Catholic Identity at Benedictine
College Atchison, Kansas: Ten-Year Review of Ex
Corde Ecclesiae in America (2011),
https://bit.ly/3mIAUI3 . . . . . . . . . . . . 2, 11, 13, 14
Benedictine College’s Vision, Benedictine College,
https://bit.ly/3zyiRrI . . . . . . . . . . . . . . . . . . . . . . . 2
Benedictine 2020 – Faculty, Benedictine College,
https://bit.ly/38qdGOE . . . . . . . . . . . . . . . . . . . . 13

iii
Brief of the Amicus Curiae American Ass’n
of University Professors, DeWeese-Boyd v.
Gordon Coll., 163 N.E.3d 1000 (Mass. 2021)
(SJC-12988). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Chemical Engineer Assistant or Associate Professor,
Benedictine College, https://bit.ly/3DAFUo8 . . . 15
Faculty Openings: Full-Time Faculty Position
Department of Political Science, Franciscan
University of Steubenville,
https://bit.ly/3mKzjRP . . . . . . . . . . . . . . . . . . . . 14
Faculty Openings: Full-Time Faculty Position in the
Department of Political Science, Franciscan
University of Steubenville,
https://bit.ly/3DAFZIs . . . . . . . . . . . . . . . . . . . . . 15
Faculty Openings: Full-Time Professor of Fine Arts,
Franciscan University of Steubenville,
https://bit.ly/2WBdJov . . . . . . . . . . . . . . . . . . . . 15
Franciscan Univ. of Steubenville, Bylaws
(Rev. May 2019) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Franciscan Univ. of Steubenville, Staff Employee
Handbook (Rev. Mar. 29, 2021) . . . . . . . . . . . . . 14
Franciscan Univ. of Steubenville, Student
Handbook 2020–2021 (2020),
https://bit.ly/3yuIBnx . . . . . . . . . . . . . . . . . . . . . . 3
André Gushurst-Moore, Glory in All Things: St.
Benedict & Catholic Education Today (2020) . . 11
Human Resources, Franciscan University of
Steubenville, https://bit.ly/2WFGu32. . . . . . . 4, 14

iv
Pope John Paul II, Apostolic Constitution
on Catholic Universities Ex Corde Ecclesiae
(1990). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
The Mission, Vision, and Charisms of Franciscan
University of Steubenville, Franciscan
University of Steubenville,
https://bit.ly/3gKKVAI . . . . . . . . . . 3, 4, 11, 12, 15
The Benedictine College Mission, Benedictine
College, https://bit.ly/38phr6J . . . . . . . . . . . 10, 11

1
INTEREST OF AMICI CURIAE1
Amici curiae are two deeply religious and distinctly
Catholic institutions of higher education: Benedictine
College and Franciscan University of Steubenville. The
central mission and animating purpose of both schools
is to provide an academically rigorous, religiously
integrated, and profoundly Catholic education in which
young men and women are formed to be leaders in the
world and authentic witnesses of Christ. Amici
therefore seek to preserve their First Amendment right
to define and to direct their religious educational
missions free from the interference of the state. That
right requires recognition of a robust ministerial
exception at the college level so that amici may
determine who teaches and transmits their faith to the
next generation of students.
Amicus Benedictine College (“Benedictine”) is a
Catholic, liberal arts college in Atchison, Kansas,
sponsored by the monks of St. Benedict’s Abbey and
sisters of Mount St. Scholastica Monastery.
Benedictine has inherited and now continues the 1500year Benedictine educational tradition which prepares
students for service to the Church and to society. With
foundations in the 1850s, today’s college was formed in
1971 by the merger of St. Benedict’s College for men
with Mount St. Scholastica College for women. It offers
1

Pursuant to Rule 37.6, amici curiae affirm that no counsel for a
party authored this brief in whole or in part and that no person
other than amici curiae, its members, and its counsel made a
monetary contribution to its preparation or submission. Counsel
of record for all parties received notice of amici curiae’s intent to
file this brief at least ten days prior to the due date. All parties
have consented to the filing of this brief.

2
49 undergraduate majors, 2 master’s degree programs,
and multiple pre-professional courses to over 2000
students. Benedictine strives to be the “flagship college
of the New Evangelization,” academically and
spiritually equipping students to become leaders in the
Benedictine tradition and to go out and transform the
world. See Benedictine Coll., Catholic Identity at
Benedictine College Atchison, Kansas: Ten-Year Review
of Ex Corde Ecclesiae in America 1 (2011),
https://bit.ly/3mIAUI3 [hereinafter Catholic Identity at
Benedictine]. Over the last few decades, Benedictine
has been a success story within Catholic higher
education. It has expanded enrollment, increased fulltime faculty, and significantly enhanced academic and
extracurricular resources for its students.
Benedictine puts Jesus Christ at the center of
everything it does and encourages students, faculty,
and staff to do the same. Benedictine educates the
whole person, not just the intellect, so that students
may come to wholeheartedly love and follow God
through Jesus Christ. Benedictine’s faculty play an
integral and indispensable role in the Christ-centered
mission of the college and all faculty must integrate the
Catholic faith into their work. This “distinctively
Benedictine approach to education culminates in
graduates who are committed to living their lives so
that in all things God may be glorified.” Benedictine
College’s Vision, Benedictine College,
https://bit.ly/3zyiRrI (last visited Aug. 31, 2021)
(internal quotation marks omitted).
Amicus Franciscan University of Steubenville
(“Franciscan”) is a Catholic university founded in Ohio

3
in 1946 by the Franciscan Friars of the Third Order
Regular at the request of Bishop John King Mussio. It
continues the 800-year educational tradition of the
Third Order of St. Francis of Assisi, and offers over 90
academic programs, including 45 undergraduate
degrees and 12 graduate programs, to its more than
3000 students. Since its beginnings, Franciscan has
endeavored to produce “men and women of faith whose
moral, spiritual, and intellectual formation enable[s]
them to provide exemplary leadership in their careers,
communities, and churches.” Franciscan Univ. of
Steubenville, Student Handbook 2020–2021, ch. I
(2020), https://bit.ly/3yuIBnx. It is Franciscan’s vision,
in the spirit of St. Francis of Assisi, to “become the
leading instrument for worldwide renewal at the
service of the Catholic Church.” The Mission, Vision,
and Charisms of Franciscan University of Steubenville,
Franciscan University of Steubenville,
https://bit.ly/3gKKVAI (last visited Aug. 31, 2021)
[hereinafter Franciscan Mission & Vision]. Franciscan
strives to fulfill this vision by “embrac[ing] the call to
dynamic orthodoxy” in order “to educate, to evangelize,
and to send forth joyful disciples” who will “be a
transforming presence in the Church and the world.”
Id.
Like Benedictine, Franciscan is a leading success
story in Catholic higher education and has seen its
enrollment grow tenfold over the past half-century
through a reinvigorated commitment to its religious
mission. With a robust and passionate integration of
its Catholic faith throughout its academic programs,
Franciscan has built “an environment in which
students, faculty, and staff seek ongoing personal

4
conversion in the power of the Holy Spirit.” Id. The
school is today “a visionary organization in service of
the Catholic Church.” Human Resources, Franciscan
University of Steubenville, https://bit.ly/2WFGu32
(last visited Aug. 31, 2021). As with Benedictine,
faculty play a necessary and active role in Franciscan’s
mission both inside and outside the classroom. All
faculty at Franciscan must integrate the Catholic faith
into their teaching, participate in the life of the Church
on campus, and model the Catholic faith, as their
vocations at Franciscan are “central to the reform and
the renewal of the Catholic Church.” Id.
INTRODUCTION AND
SUMMARY OF ARGUMENT
This Court should grant certiorari to make clear
that the First Amendment guarantees religious colleges
and universities the same vital protections that
safeguard a religious grade school’s freedom to select
the teachers who personify and teach its faith. Despite
this Court’s recent admonition that such protections
apply to a religious school’s selection of “any
‘employee’ . . . who serves as a messenger or teacher of
its faith,” Our Lady of Guadalupe Sch. v. MorrisseyBerru, 140 S. Ct. 2049, 2063, 2064 (2020) (emphasis
added), the Supreme Judicial Court of Massachusetts
determined they cannot apply in this case because
Professor Margaret DeWeese-Boyd’s integration of
faith into her work at a Christian college did not look
enough like the teaching of religious education at a
Christian grade school. That is, despite DeWeeseBoyd’s duty to imbue her teaching and scholarship with
Gordon College’s Christian faith, the court opined that

5
she could not be a “minister” of that faith because she
did not directly teach “religious doctrine,” lead her
students in prayer or worship services, or provide
formal religious guidance to them. See Pet. App.
26–34.
The Supreme Judicial Court’s restriction of the
ministerial exception to the context of grade-school
religious education both defies this Court’s precedent
and denies the reality of religious formation at many
pervasively religious colleges and universities. As the
example and experience of amici demonstrate, the
religious missions and ministries of such schools sweep
far beyond teaching the basic tenets of the faith or
performing the few ritualistic activities the
Massachusetts court deemed to be sufficiently
“religious” in nature. For colleges and universities, like
amici, who sincerely believe it is their religious duty to
integrate their faith deeply into all their educational
endeavors, there can be no segregation of those
professors who will teach “religious” matters from
those who will cover “all the rest.” The line suggested
by the Massachusetts court is not simply difficult to
draw; for these schools it does not exist.
Not all religiously affiliated colleges and
universities choose to have religion pervade all aspects
of their educational programs in this way. Many do
not. But the First Amendment protects the right of
schools to choose to do so at the college level just as
they may at the grade-school level. Institutions like
amici therefore ought to be afforded the full protections
of the ministerial exception and not forced to erect
what they believe to be an artificial divide between

6
their religious faith and employment decisions related
to those professors who will fulfill their distinct
educational missions.
Unfortunately, the Massachusetts Supreme Judicial
Court effectively foreclosed the application of the
ministerial exception to instructors at the college level,
regardless of the degree of religiosity of the institution
at issue. Review by this Court is therefore needed to
make clear that such protections do indeed apply to
schools like amici, thus preserving their freedom to be
truly religious in the way they sincerely believe they
must.
ARGUMENT
I. The Ministerial Exception Is Not Confined to
a Narrow List of Facts Present in Prior Cases.
Little over one year ago, this Court reaffirmed that
the First Amendment guarantees religious schools the
right to select—free from government interference—
teachers and other individuals who play “key roles” in
service of “the institution’s central mission.” Our Lady
of Guadalupe, 140 S. Ct. at 2060. Under this so-called
“ministerial exception,” courts must “stay out of
employment disputes involving those holding certain
important positions” at religious schools, including “any
‘employee’ who . . . serves as a messenger or teacher of
[their] faith.” Id. at 2060, 2063 (emphasis added)
(internal quotation marks omitted); see also HosannaTabor Evangelical Lutheran Church & Sch. v.
E.E.O.C., 565 U.S. 171, 202 (2012) (Alito, J.,
concurring) (“The Constitution leaves it to the collective
conscience of each religious group to determine for

7
itself who is qualified to serve as a teacher or
messenger of its faith.”). In so doing, this Court
rejected the Ninth Circuit’s attempts to reduce the
ministerial exception to a “rigid test” and instructed
courts instead to “take all relevant circumstances into
account and to determine whether each particular
position implicated the fundamental purpose of the
exception.” Our Lady of Guadalupe, 140 S. Ct. at 2067
(emphasis added).
Unfortunately, the Supreme Judicial Court of
Massachusetts has breathed new life into the same
error this Court sought to end in Our Lady of
Guadalupe. All but ignoring what this Court actually
wrote in Our Lady of Guadalupe, the Massachusetts
court dissected that case and Hosanna-Tabor to their
constituent facts and then compiled them into a
checklist against which it measured the circumstances
here. See Pet. App. 27–34. In the end, the court
refused to apply the ministerial exception because
Margaret DeWeese-Boyd “was not required to, and did
not” do exactly what the plaintiffs in those earlier cases
did. Id. at 24. That is, because DeWeese-Boyd did not
formally “meet with students for spiritual guidance,
pray with students, directly teach them [religious]
doctrine, or participate in religious rituals or services
with them,” the Massachusetts court found her role to
be “significantly different from the . . . teachers of
religion at primary or secondary schools in the cases
that have come before the Supreme Court.” Id. at 26,
31.
Such a blinkered view of the ministerial exception
cannot be squared with what this Court actually held

8
in Our Lady of Guadalupe. There, this Court explicitly
rejected such a “checklist” approach and demanded
that courts instead consider all relevant circumstances
to determine, “at bottom, . . . what an employee
does”—and whether she serves an important religious
function for the school. Our Lady of Guadalupe, 140
S. Ct. at 2064. What DeWeese-Boyd did for Gordon
College appears to be undisputed. She was “required
to, and did, both engage in teaching and scholarship
from a Christian perspective and integrate her faith
into her work.” Pet. App. 24. DeWeese-Boyd was well
aware that Gordon “expected and required [her] to be
a Christian teacher and scholar,” id. at 36, and even
she advertised her ability to do so, see id. at 128. And
she did these things ultimately in service of Gordon’s
mission to be “an intentional Christian community”
that “combines an exceptional liberal arts education
with an informed Christian faith.” Id. at 43.
Yet, to the Supreme Judicial Court, DeWeese-Boyd’s
position did not fall within the ministerial exception
because she did not perform tasks that the court found
to be as overtly “religious” as those in Hosanna-Tabor
and Our Lady of Guadalupe. See, e.g., id. at 27
(“DeWeese-Boyd’s responsibility to integrate the
Christian faith into her teaching, scholarship, and
advising . . . is not tied to a sectarian curriculum: it
does not involve teaching any prescribed religious
doctrine, or leading students in prayer or religious
ritual.”). Under any fair understanding of religious
education, the fact that DeWeese-Boyd’s integration of
faith into her teaching at the collegiate level appeared
to be “different from . . . teachers of religion at primary
or secondary schools,” id. at 31, should be

9
unremarkable. See infra Parts II–III. And under any
fair reading of Our Lady of Guadalupe, the availability
of the ministerial exception cannot turn on whether the
job duties of the individual in question happen to check
the same boxes as those in the few “cases that have
come before the Supreme Court,” Pet. App. 31. See Our
Lady of Guadalupe, 140 S. Ct. at 2067.2
For these reasons, review by this Court is needed to
make clear that the Court meant exactly what it wrote
in Our Lady of Guadalupe and to end the continued
diminishment of the ministerial exception.

2

The Supreme Judicial Court’s opinion repeated nearly the exact
method of analysis advocated by the dissenting Justices in Our
Lady of Guadalupe. There, the dissenting Justices focused on
specific factors listed as relevant in Hosanna-Tabor—such as the
employee’s job title, formal religious training, whether she held
herself out as a “minister,” and whether she led “devotional
exercises”—and opined that Morrissey-Berru’s role was not
sufficiently religious because she was too “unlike the teacher in
Hosanna-Tabor.”
140 S. Ct. at 2079–81 (Sotomayor, J.,
dissenting). The dissenting Justices criticized the majority for
explicitly rejecting such a narrow application of the ministerial
exception in favor of a “laissez-faire analysis” that applies the
exception “[s]o long as the employer determines that the
employee’s ‘duties’ are ‘vital’ to ‘carrying out the mission of the
church.’” Id. at 2082.
It may well be that the Massachusetts Supreme Judicial Court
believes the dissenting Justices had the better of the argument in
Our Lady of Guadalupe. But the path charted by the dissenters
was rejected, and indeed closed, by a majority of this Court in that
case. Disagree as it might, the Massachusetts court cannot now
evade the consequences of that decision by acting as if it did not
occur.

10
II. A Constrained Ministerial Exception Denies
the Reality of Education and Formation at
Schools like Benedictine and Franciscan.
The Supreme Judicial Court’s cramped
understanding of the ministerial exception not only
defies this Court’s precedent, but, more fundamentally,
it denies the reality of education and formation at
colleges like amici. To be sure, at such colleges one
might encounter individuals who perform the few tasks
credited by the Massachusetts court as “ministerial.”
But, as the examples of Benedictine and Franciscan
demonstrate, religious ministries at some institutions
of higher learning extend far beyond that.
Benedictine and Franciscan’s Catholic faith
pervades all aspects of their educational missions.
Indeed, their religious faith is the very reason they
engage in such missions in the first place. See The
Benedictine College Mission, Benedictine College,
https://bit.ly/38phr6J (last visited Aug. 31, 2021)
(“[Benedictine College’s] mission as a Catholic,
Benedictine, liberal arts, residential college is the
education of men and women within a community of
faith and scholarship.”); Franciscan Univ. of
Steubenville, Bylaws, art. II, § 1(b) (Rev. May 2019) (“It
shall be the . . . purpose of the University, publicly
identified as a Catholic and a Franciscan institution, to
promote the moral, spiritual, and religious values of its
students.”). These commitments enjoy a rich lineage.
Benedictine, for example, continues a 1500-year
educational tradition inspired by St. Benedict of
Nursia, which pursues “peace, the balance of activity
and contemplation, and the glorification of God in all

11
undertakings.” The Benedictine College Mission, supra.
This “oldest continuous form of Catholic education”—in
which young, old, clergy, and lay alike have been
taught—“in all its breadth and inclusiveness, leads
back to this higher (or deeper) purpose: compunction of
heart, the turning of the soul towards God.” André
Gushurst-Moore, Glory in All Things: St. Benedict &
Catholic Education Today 16–17 (2020). Similarly,
Franciscan continues the 800-year tradition of the
Third Order of St. Francis of Assisi and is “guided by
[his] example and teaching” to “rebuild [God’s] church”
through a university that is “truly Catholic in its full
submission to the teaching authority of the Catholic
Church.” Franciscan Mission & Vision, supra.
At the heart of each school’s mission is the call of Ex
Corde Ecclesiae, Pope John Paul II’s apostolic
constitution on Catholic universities. See Catholic
Identity at Benedictine, supra, at 3; Franciscan Mission
& Vision, supra. Under this teaching, a Catholic
university is not simply to provide a generic secular
course of study in a setting adorned with certain
hallmarks of religious life. Rather, Ex Corde Ecclesiae
instructs that “the objective of a Catholic University” is
to provide a “Christian presence” in the world of higher
education to “confront[] the great problems of society
and culture.” Pope John Paul II, Apostolic Constitution
on Catholic Universities Ex Corde Ecclesiae ¶ 13 (1990)
[hereinafter Ex Corde Ecclesiae]. According to Ex
Corde Ecclesiae, the Catholic university is thus to be
one where “Catholicism is vitally present and
operative” and “Catholic ideals, attitudes and
principles penetrate and inform university activities.”
Id. ¶ 14. The religious mission of a school in the mold

12
of Benedictine or Franciscan cannot be limited to a
discrete subset of functions for “Catholic teaching and
discipline are to influence all university activities.” Id.
at Pt. II, art. 2, § 4 (emphasis added). The Church has
entrusted Catholic universities with this “cultural and
religious [mission] of vital importance because it
concerns the very future of humanity.”
Id. at
Conclusion.
To fulfill these commitments, Benedictine and
Franciscan express their religious faith throughout
their curricula. These schools believe deeply in their
central call to “promote dialogue between faith and
reason” and to perform “all the basic academic
activities” of higher education in “connect[ion] with and
in harmony with the evangelizing mission of the
Church.”
Id. ¶¶ 17, 49 (emphasis omitted).
Consequently, amici sincerely believe that they cannot
separate their teaching, scholarship, or other
educational activities from their faith—and they cannot
simply set aside some classes to teach “religion” while
allowing the bulk to handle “all the rest.” There is no
purely “secular” subject of study according to
Benedictine and Franciscan’s religious beliefs.
Franciscan therefore allows “no artificial separation of
the intellectual and the faith life,” and insists that its
students are to be distinguished by their
“concentrat[ion] on intellectual development through
studies while integrating faith and learning in and out
of the classroom.” Franciscan Mission & Vision, supra.
Benedictine, likewise, directly incorporates its Catholic
beliefs throughout its many fields of academic study
(and into its campus life more broadly), with an aim to
be the “flagship college of the New Evangelization.”

13
Catholic Identity at Benedictine, supra, at 1, 6. At the
heart of both schools’ commitment to imbue their
educational programs with their Catholic faith is their
underlying belief that that “what is at stake” in higher
education is not only the “meaning of scientific and
technological research, of social life and of culture, but
[also], on an even more profound level, . . . the very
meaning of the human person.” Ex Corde Ecclesiae,
supra, ¶ 7 (emphasis omitted).
As in any institution of higher learning, the faculty
of Benedictine and Franciscan are indispensable to the
success of their educational missions. And given the
unique Christ-centered missions that these schools
have been called to serve, their faculty are likewise
“called to be witnesses and educators of authentic
Christian life, which evidences attained integration
between faith and life, and between professional
competence and Christian wisdom.” Id. ¶ 22. The
identities of Benedictine and Franciscan are
“essentially linked to the quality of [their] teachers and
to respect for Catholic doctrine.” Id. at Pt. II, art. 4,
§ 1.
Both schools therefore appoint only professors in
whom they can entrust their distinctly Catholic
missions. Benedictine, for example, hires faculty who
hold “a personal commitment to the ideals and
principles of the Catholic tradition and expression of
these in action.”
Benedictine 2020 – Faculty,
Benedictine College, https://bit.ly/38qdGOE (last
visited Aug. 31, 2021). The president and dean of the
college conduct “mission interviews” with all
prospective faculty and senior staff members—a

14
“crucial step in the hiring process” during which they
“explain the nature and significance of the mission in
the life of the college” and ask the prospective
employees “how they envision themselves contributing
to this mission.” Catholic Identity at Benedictine,
supra, at 6. Once hired, new faculty are provided an
orientation on the mission of the school, including a
“specific exploration of Ex Corde Ecclesiae.” Id.
Franciscan likewise requires that prospective faculty
candidates submit statements detailing how they will
integrate the “vision of Catholic education expressed in
Ex corde Ecclesiae” into their courses and scholarly
work. See, e.g., Faculty Openings: Full-Time Faculty
Position Department of Political Science, Franciscan
University of Steubenville, https://bit.ly/3mKzjRP (last
visited Aug. 31, 2021). Franciscan stresses that “[a]s
brothers and sisters in Christ, faculty, staff, and
students” work together to build Franciscan’s
“dynamic, evangelistic, Catholic culture that
encourages students . . . to grow in mind, body, and
spirit, following Jesus Christ.” Franciscan Univ. of
Steubenville, Staff Employee Handbook at A-1 (Rev.
Mar. 29, 2021). Similarly, the university informs
prospective faculty that their “work should never just
be work” and that, at Franciscan, they will “have the
opportunity to be a part of a visionary organization in
service of the Catholic Church, society, and culture.”
Human Resources, Franciscan University of
Steubenville, supra.
The demand to incorporate the school’s Catholic
faith into the faculty’s work applies across all

15
disciplines at Benedictine and Franciscan.3 This is
because, to each of these schools, education is in service
of the truth—and the truth, according to these schools’
sincerely held religious beliefs, is known only through
God. See, e.g., Ex Corde Ecclesiae, supra, at ¶ 4 (“[A]
Catholic University is completely dedicated to the
research of all aspects of truth in their essential
connection with the supreme Truth, who is God.”). For
Benedictine and Franciscan, to pursue truth in and
through God, one must look to the teachings contained
in sacred Scripture or tradition as taught by the
Catholic Church. See, e.g., Franciscan Mission &
Vision, supra (“The University . . . reject[s] all
propositions contrary to those truths [taught by the
Catholic Church], and promot[es] thereby all the truths
of revelation whether found in Scripture or Tradition
as taught by the Catholic Church.”). Accordingly, to
these schools, a curriculum that delimits itself to
exclude such sources of truth in certain disciplines
would be no education at all.
At bottom, what Benedictine and Franciscan
provide—what is their very purpose to provide—is a
Christ-centered education that integrates faith and
reason throughout their educational programs and that
will form students and prepare them to serve as
3

See, e.g., Chemical Engineer Assistant or Associate Professor,
Benedictine College, https://bit.ly/3DAFUo8 (last visited Aug. 31,
2021); Faculty Openings: Full-Time Professor of Fine Arts,
Franciscan University of Steubenville, https://bit.ly/2WBdJov (last
visited Aug. 31, 2021); Faculty Openings: Full-Time Faculty
Position in the Department of Political Science, Franciscan
University of Steubenville, https://bit.ly/3DAFZIs (last visited Aug.
31, 2021).

16
leaders and living witnesses to the Gospel. This is a
mission and a ministry that cannot be fulfilled by
simply hiring a few individuals to teach a religious
education class or to escort the students to weekly
Mass. By failing to understand the full scope and
nuance of such a pervasively religious higher
education, the Massachusetts ruling discriminates
against schools like amici and prevents them from
being truly religious in the way they sincerely believe
they must.
III.The Supreme Judicial Court’s Test Would
Destroy the Ability of Schools like Amici to
Define Their Educational Missions and
Threatens Their Very Existence.
Despite the vital religious functions performed by
the faculty at schools like Benedictine and Franciscan,
the Supreme Judicial Court’s circumscribed test all but
eliminates the ministerial exception in higher
education for the simple reason that a college is not an
elementary school. The narrow checklist applied by the
Supreme Judicial Court simply does not map onto
college education. And an insistence upon such a rigid
set of criteria means that the critical protections of the
ministerial exception may not safeguard the freedom of
even the most manifestly and comprehensively
religious colleges to choose the faculty who will teach
and transmit their unique religious messages—leaving
the schools’ very existence vulnerable to the control of
the state.
At the most basic level, the court’s tailoring of the
ministerial exception to grade-school teachers
forecloses its application to college professors because

17
their job duties can hardly be compared. For starters,
college professors teach mature and independent
adults, not young children entrusted to their custody
during the school day. College professors are not
typically tasked with supervising and chaperoning
their students throughout the day, leaving them with
substantially less opportunity and less reason to escort
students to religious services or to lead them in
religious rituals, Pet. App. 26. Relatedly, grade-school
teachers are generalists by nature, often required to
teach their students nearly all subjects, including, at
religious schools, religion. This was the case for Cheryl
Perich, see Hosanna-Tabor, 565 U.S. at 178, for Agnes
Morrissey-Berru, Our Lady of Guadalupe, 140 S. Ct. at
2056, and for Kristen Biel, id. at 2058. College
professors are, of course, more specialized than that.
Most are experts in a single field and teach classes and
produce scholarship in only that discipline. For this
reason alone, there is rarely occasion for many college
professors to “directly” teach their students religious
“doctrine,” Pet. App. 26.
These simple distinctions betray a more
fundamental reality, illustrated above: the educational
ministry of amici’s thoroughly religious colleges looks
radically different from the elementary religious
education described by the Supreme Judicial Court.
And for good reason. The religious formation needed to
prepare young men and women to become faith-filled
leaders in the professional world is a far cry from that
needed to inculcate young children in the foundations
of a religion. Where a religious grade school must
teach the basics in a broad spectrum of subjects,
including the basic “tenets of the faith,” Our Lady of

18
Guadalupe, 140 S. Ct. at 2064, Benedictine and
Franciscan must promote a deep “dialogue between
faith and reason” and “be engaged in a constant effort
to determine the relative place and meaning of each of
the various disciplines within the context of a vision of
the human person and the world that is enlightened by
the Gospel.” Ex Corde Ecclesiae, supra, ¶¶ 16, 17
(emphasis omitted). Thus, Benedictine and Franciscan
do not simply aim to teach their students the
foundations of the Catholic faith but rather strive to
build educational communities in which students will
study, deepen, and mature in all applications of that
faith so they may become leaders who will transform
the world and glorify God. See Benedictine College’s
Vision, supra. (“We dedicate ourselves to educating
students to become leaders in the Benedictine
tradition, who will transform the world through their
commitment to intellectual, personal, and spiritual
greatness. . . . Our distinctively Benedictine approach
to education culminates in graduates who are
committed to living their lives ‘so that in all things God
may be glorified.’”); About Us, Franciscan University of
Steubenville, https://bit.ly/3kB6fK2 (last visited Aug.
31, 2021) (“Here, your exceptional education is
grounded in a passionately Catholic faith tradition that
takes you beyond yourself and into the community
where you can evangelize and transform the culture.”).
For amici, this can be accomplished only by building a
school where “Catholic ideals, attitudes and principles
penetrate and inform [the] university” at every level.
Ex Corde Ecclesiae, supra, ¶ 14.
By myopically presuming that the only religious
ministry in an educational setting that matters is one

19
that mirrors a grade-school religion class, the
Massachusetts court would effectively deny colleges
like amici the indispensable “authority to select,
supervise, and if necessary, remove” the individuals
who are at the heart of this calling. Our Lady of
Guadalupe, 140 S. Ct. at 2060. And, as this Court has
warned, without such protections these schools would
see “the core of their mission” hollowed out, and “the
very reason for [their] existence” “undermine[d].” Id.
at 2055. Indeed, if amici were to lose their ability to
select those who will personify and profess their faith,
they would lose their very ability to accomplish their
missions. Requiring amici instead to employ even
professors that they believe might lead students away
from the faith is not merely inconsistent with their
missions but is in fact antithetical to them. And
without a reason to exist, many pervasively religious
colleges might simply cease to do so.
This does not mean that all religiously affiliated—or
even all Catholic—colleges and universities define their
educational missions in the same way as amici. Nor
does it mean that those schools which do pursue
similar missions to amici all define the roles of their
faculty in the same way or place the same demands on
their teaching and scholarship. Many do not. Thus,
contrary to the dramatic warnings of the Supreme
Judicial Court, Pet. App. 34–35, a ruling in favor of
Gordon College in this case need not mean that all
faculty appointments at all religiously affiliated colleges
are necessarily protected by the ministerial exception.
But surely some are. And surely the question of which
ones qualify does not turn on how closely the professor
resembles a grade-school religion teacher.

20
Moreover, the fact that some deeply religious
colleges may require their faculty to integrate a
particular faith tradition into their work is not a
looming threat to academic freedom, as was suggested
to the state court, see Brief of the Amicus Curiae
American Ass’n of University Professors, DeWeese-Boyd
v. Gordon Coll., 163 N.E.3d 1000 (Mass. 2021) (SJC12988). Rather, the protections demanded by the First
Amendment simply enable schools like Benedictine and
Franciscan to exist in the first place. The elimination
of such protections would not foster academic freedom
and diversity but rather endanger it by threatening to
eliminate the unique and vibrant educational
environments that some schools have chosen to
cultivate.
This “diversity of institutions and
educational missions is one of the key strengths of
American higher education,” not a hazard to it. 20
U.S.C. § 1011a(a)(2)(A); see also Zelman v. SimmonsHarris, 536 U.S. 639, 680–83 (2002) (Thomas, J.,
concurring); United States v. Virginia, 518 U.S. 515,
533 n.7, 535 (1996); Pierce v. Soc’y of Sisters, 268 U.S.
510, 534–35 (1925).
The rich diversity among and complexity within
religious ministries are precisely what the holistic,
flexible, and functional analysis established in
Hosanna-Tabor and Our Lady of Guadalupe was
meant to embrace. But this nuanced understanding of
the First Amendment and of the ministerial protections
it demands is exactly what the Supreme Judicial
Court’s blinkered analysis has foreclosed. Review is
needed by this Court to correct this drastic error and to
make clear that many faculty members at schools like
amici perform critical religious work, even if that work

21
might not include leading students in prayer or
lecturing them in the content of the Catechism.
CONCLUSION
For the foregoing reasons, amici curiae urge the
Court to grant certiorari and reverse.
Respectfully submitted,
RICHARD W. GARNETT IV
Counsel of Record
NICOLE STELLE GARNETT
JOHN A. MEISER
NOTRE DAME LAW SCHOOL
RELIGIOUS LIBERTY INITIATIVE
Eck Hall of Law
Notre Dame, Indiana 46556
(574) 631-6981
rgarnett@nd.edu
Counsel for Amici Curiae
SEPTEMBER 2, 2021

